No. 19-431

In the Supreme Court of the United States
__________

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HOME,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA AND
STATE OF NEW JERSEY,
__________

Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE THIRD CIRCUIT

__________

REPLY BRIEF OF PETITIONER
__________

PAUL D. CLEMENT
ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave.
NW
Washington, D.C. 20004
(202) 389-5000

MARK L. RIENZI
Counsel of Record
ERIC C. RASSBACH
LORI H. WINDHAM
DIANA M. VERM
CHRIS PAGLIARELLA
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire Ave.
NW, Suite 700
Washington, D.C. 20036
(202) 955-0095
mrienzi@becketlaw.org

Counsel for Petitioner

TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ....................................... ii
REPLY BRIEF ............................................................ 1
I.

The Third Circuit’s standing
ruling is unnecessary and wrong. .............. 2

II.

The decision below is egregiously
wrong and revives a circuit split
that warrants review. ................................. 5

CONCLUSION ......................................................... 12

ii
TABLE OF AUTHORITIES
Page(s)
Cases
Burwell v. Hobby Lobby Stores, Inc.
573 U.S. 682 (2014) ............................................ 6, 7
California v. U.S. Dep’t of Health &
Human Servs.,
941 F.3d 410 (9th Cir. 2019) ................................ 11
Crawford v. Marion County
Election Bd.,
553 U.S. 181 (2008) ................................................ 3
Horne v. Flores,
557 U.S. 433 (2009) ................................................ 3
McConnell v. FEC,
540 U.S. 93 (2003) .................................................. 3
Pennsylvania v. President,
888 F.3d 52 (3d Cir. 2018).................................. 3, 4
Rumsfeld v. FAIR,
547 U.S. 47 (2006) .................................................. 2
Sharpe Holdings, Inc. v. U.S. Dep’t of
Health & Human Servs.,
801 F.3d 927 (8th Cir. 2015) .................................. 8
Zorach v. Clauson,
343 U.S. 306 (1952) ................................................ 2
Statutes
42 U.S.C. § 2000bb-1 ................................................... 7
Other Authorities
76 Fed. Reg. 46,621 (Aug. 3, 2011) ............................. 9

iii
77 Fed. Reg. 8725 (Feb. 15, 2012) ............................. 10
83 Fed. Reg. 57,536 (Nov. 15, 2018)............................ 7

REPLY BRIEF
The decision below declares it the law of the land
that the federal government not only need not, but
may not, exempt the Little Sisters and other religious
objectors from the federal contraceptive mandate.
Adding procedural insult to religious liberty injury,
the decision holds that the Little Sisters do not even
have appellate standing to challenge it. That decision
is wrong in both respects and plainly merits this
Court’s review, as the Little Sisters and the Nation
need a definitive answer to the persistent religious liberty questions this Court previously agreed to review.
Far from undermining that conclusion, respondents’ brief in opposition reinforces it by embracing the
extreme view that the federal government is virtually
powerless to accommodate religious exercise. According to respondents, the Religious Freedom Restoration
Act (RFRA) provides only a mechanism for the federal
government to be sued for refusing to accommodate religion, and no authority for it to voluntarily accommodate religious exercise. Under that extreme view, it is
not clear why the federal government had the power
to create the so-called “accommodation” that the decision below reinstates, or even the power to exempt
houses of worship from the contraceptive mandate. Instead, respondents appear to envision a world in
which the government must consciously burden religious exercise, wait to be sued, and then endure costly
litigation before rights to religious liberty can be vindicated. That version of RFRA would be unrecognizable to the Congresses that enacted it to promote government respect for religious exercise and amended it
to provide even greater protection. And it would be unfathomable to the framers who enshrined religious

2
protection in the constitutional text, and to this Court,
which has long recognized that the government “follows the best of our traditions” when it accommodates
religious exercise. Zorach v. Clauson, 343 U.S. 306,
314 (1952).
That this position is advocated by states with their
own duties to accommodate religious exercise under
the First Amendment raises the stakes and underscores the need for this Court’s review. Indeed, that
this suit is brought by states to stop the federal government from easing the burdens its own regulations
have imposed on religious exercise is as unseemly as
it is unprecedented. And the fact that the states want
to exclude the religious adherents from the case, so
that a landmark religious liberty case can be decided
as an intramural affair between two governments, is
more troubling still. This Court should grant both this
petition and the federal government’s petition in No.
19-454, and bring definitive resolution to the critical
religious liberty issues implicated by the contraceptive
mandate. At a minimum, this Court should use these
cases to make clear that when the federal government
finally accepted this Court’s invitation in Zubik to resolve this long-running dispute by accommodating the
Little Sisters’ religious exercise, it ran afoul of no law,
but instead followed the best of our traditions.
I. The Third Circuit’s standing ruling is unnecessary and wrong.
It is settled law in both this Court and the Third
Circuit that so long as one party invoking the court’s
jurisdiction has standing to seek the relief sought,
there is no need to address the standing of any other.
See, e.g., Rumsfeld v. FAIR, 547 U.S. 47, 52 n.2 (2006)

3
(agreeing with Third Circuit that there was no need to
“determine whether the other plaintiffs have standing
because the presence of one party with standing is sufficient to satisfy Article III[]”). Indeed, a different
panel of the Third Circuit applied that rule in an earlier appeal in this case, finding no need to address the
Little Sisters’ standing because they “seek the same
relief as the federal government.” Pennsylvania v.
President, 888 F.3d 52, 57 n.2 (3d Cir. 2018). Here, by
contrast, the panel went out of its way to hold that the
Little Sisters lacked appellate standing, even though
they undisputedly seek the same relief the federal government has unquestionable standing to seek.
Respondents try to defend that gratuitous effort to
exclude the Little Sisters from a dispute about their
own religious liberty by claiming that any party that
files its own notice of appeal or petition for certiorari
must demonstrate standing. BIO.15. That separatefilings-are-somehow-different claim is at odds not only
with the Third Circuit’s earlier decision in this case,
but with the many cases in which this Court declined
to address the standing of parties that filed separate
petitions after finding that another petitioner had
standing. See, e.g., Horne v. Flores, 557 U.S. 433, 446
(2009); Crawford v. Marion County Election Bd., 553
U.S. 181, 189 n.7 (2008) (plurality op.); McConnell v.
FEC, 540 U.S. 93, 233 (2003).
Respondents fare no better in trying to deny the
Little Sisters’ obvious stake in this dispute. While respondents note that the Little Sisters are presently
protected by the Colorado injunction, they tellingly do
not suggest that the injunction (or similar orders issued by other courts) could survive were this Court to
grant review and accept their RFRA arguments. To

4
the contrary, the injunctions plainly rest on a view of
RFRA and the burdens imposed by the regulatory
mechanism that are incompatible with the decision
below.
Moreover, respondents do not deny that the Colorado injunction provides the Little Sisters with less relief than the Final Rule that protects the Sisters and
that respondents have successfully challenged and enjoined, because the injunction protects them only if
they remain on their current plan. Instead, respondents claim that the Little Sisters “forfeited” that undisputed basis for appellate standing by raising it at
oral argument below instead of in their reply brief.
BIO.14. But the Third Circuit had already previously
held that the Little Sisters had an interest in protecting the fruits of Zubik, protecting against RFRA interpretations that would jeopardize their injunctive relief, and in maintaining regulatory relief through the
rules. Pennsylvania, 888 F.3d at 58-60. It is not clear
how a party could “forfeit” further explications of these
holdings by explaining how the injunction and the rule
are different. In any case, this explanation only arose
at oral argument because the states repackaged their
intervention arguments as appellate standing arguments only in the final two pages of their 104-page
brief, and did not clearly argue that the Colorado injunction eliminated standing on either page. Response
Br. of Appellees 102-103. That likely explains why the
Third Circuit itself made no mention of forfeiture or
even tardiness in rejecting petitioner’s appellate
standing. Pet.App.15a n.6.
Respondents’ contention (at 12) that the Third Circuit’s standing decision is not cert-worthy likewise

5
misses the mark. This case as a whole necessitates review because the decision below renders it the law of
the entire Nation that the federal government not only
need not, but may not, exempt the Little Sisters and
other religious objectors from the contraceptive mandate. The Little Sisters have an obvious and continuing interest in that issue: They were integral to challenging the mandate and the inadequacy of the federal
government’s initial efforts to accommodate religious
objections, and to prompting an executive order that
finally exempted them and other objectors from the
mandate. Denying them appellate standing is not just
wrong; it creates the anomaly of a massively consequential case about the government’s obligations to
accommodate religious exercise proceeding in this
Court with two governments and zero religious adherents. The longstanding dispute about RFRA and the
contraceptive mandate should not be resolved in litigation brought by two states with at best only a glancing interest in its resolution, and with no one to speak
for those whose religious rights are actually at stake
but the same federal government that needlessly burdened them for years before finally seeing the error of
its ways.
II. The decision below is egregiously wrong and
revives a circuit split that warrants review.
1. Respondents do not and cannot deny that the decision below resurrects the very circuit split that this
Court granted certiorari to resolve in Zubik. Instead,
they contend that resolution of that years-long RFRA
dispute would be “premature” because the Third Circuit did not squarely resolve their novel “threshold”
contention that RFRA gives the federal government no
power to accommodate religious exercise at all.

6
BIO.22-23. In reality, that the Third Circuit (not to
mention two states) even considered that proposition
debatable underscores the need for this Court’s review.
Respondents contend that RFRA leaves the government powerless to ensure compliance with its command not to substantially burden religion unless it is
the least restrictive means of achieving a compelling
interest. Respondents’ notion that RFRA guarantees
rights that can be accommodated only via litigation is
a non-starter. This Court implicitly rejected that view
by unanimously putting the Zubik litigation on hold to
give the government an opportunity to offer the very
religious accommodation that respondents now claim
it lacks the power to provide. Similarly, this Court
identified the regulatory mechanism as a potential
means of “compl[ying] with RFRA,” not violating that
statute or acting ultra vires, in Burwell v. Hobby
Lobby Stores, Inc. 573 U.S. 682, 731 (2014). And respondents do not even pause to appreciate the irony of
defending a decision that resurrects a regulatory “accommodation” that itself could not survive under their
own legal theory that RFRA requires lawsuits but provides no authority to avoid them by accommodating
sincerely held religious beliefs. See, e.g., Zubik Br. for
Respondents 32 (describing challenged accommodation as an effort to comply with RFRA).
Respondents claim that “[t]he Third Circuit correctly enjoined the religious exemption rule because
the [former] accommodation does not” substantially
burden petitioner’s religious exercise. BIO.24-25. That
is doubly wrong (and underscores the absurdity of litigating this case without the Sisters).

7
First, it ignores the policy that imposed the initial
burden. What imposes a burden here in the first instance, and what the Little Sisters initially challenged
as inconsistent with RFRA, is the contraceptive mandate itself—i.e., the same burden backed by massive
fines that this Court had “little trouble” concluding
triggered RFRA in Hobby Lobby, 573 U.S. at 719. Once
it is clear that the contraceptive mandate requires
some sort of accommodation under RFRA, there is no
requirement under RFRA or anything else that the
government offer the most miserly accommodation imaginable. In fact, RFRA demands very nearly the opposite: The government must employ “the least restrictive means of furthering” a compelling interest.
42 U.S.C. § 2000bb-1(b). Even assuming the government has a compelling interest in ensuring cost-free
access to contraception, it has many means of achieving that objective that are far less restrictive than forcing religious objectors to facilitate the provision of contraceptive coverage through their own health plan infrastructure. See, e.g., 83 Fed. Reg. 57,536, 57,548
(Nov. 15, 2018). RFRA not only permits, but affirmatively requires, the government to select the least restrictive of those means.
Second, even if it were correct to focus only on the
regulatory mechanism as opposed to the mandate itself, the Third Circuit was equally wrong in finding no
substantial burden. That conclusion resurrects the
precise circuit split that this Court granted certiorari
to resolve in Zubik, and it is in considerable tension
with this Court’s decision to unanimously enjoin enforcement of the same regulatory mechanism that the
decision below reinstates to give the government an

8
opportunity to try to fashion a less burdensome accommodation in light of the parties’ (including the United
States’) clarification of their positions. By the Third
Circuit’s telling, that remand was an exercise in futility, as there was no meaningful burden to accommodate and no authority to accommodate it. That decision is wrong, in conflict with the Eighth Circuit’s preZubik decision in Sharpe Holdings, Inc. v. U.S. Department of Health & Human Services, 801 F.3d 927
(8th Cir. 2015), and contrary to the premise of countless injunctions against the regulatory mechanism. It
also highlights the fundamental flaw in litigating a
case about the relative burdens on religious exercise
posed by the mandate without the party whose religious exercise is burdened.
2. Respondents fare no better in defending the
Third Circuit’s conclusion that the ACA does not authorize the Final Rule. According to respondents, the
ACA “authorized HRSA to determine which preventive services must be covered,” but not “who is required to cover th[em].” BIO.20-21. If that were correct, then every exemption or “accommodation” either
administration has provided in the nine years since
HRSA first defined “preventive care” to include contraception violates the ACA. Indeed, respondents implicitly admit that their arguments would invalidate
even the exemption for houses of worship to the extent
it is broader than the constitutionally compelled ministerial exemption (which it unquestionably is,
Pet.28). BIO.22 n.8.
Moreover, respondents’ insistence that HHS lacks
discretion to allow any “group health plan” to exclude
contraceptive coverage further underscores the error
of the RFRA analysis below. If the “accommodation” is

9
in fact a means of ensuring that petitioner’s own
“health plan” provides contraceptive coverage, BIO.21,
then it cannot also be the case that it imposes only “an
independent obligation on a third party,”
Pet.App.117a. Respondents cannot have it both ways.
If the “accommodation” is consistent with the ACA because it does not alter “who” must provide the coverage, then it is consistent with the ACA only at the expense of substantially burdening petitioner’s religious
exercise under RFRA. Indeed, that is precisely the
problem the Zubik petitioners explained.
3. Respondents’ perfunctory defense of the Third
Circuit’s APA analysis is equally unavailing and internally contradictory. Respondents first deny any connection between the court’s APA and RFRA analyses.
But it is hard to imagine the court would have concluded the agencies lacked the requisite good cause to
employ an interim final rule (IFR) if it had thought the
failure to do so would violate RFRA. While the court
breezily suggested that “[a]ll regulations are directed
toward reducing harm in some manner,” Pet.App.33a,
there is an obvious difference between acting promptly
to reduce harm at the margin and doing so to halt an
ongoing federal civil rights violation. If the latter does
not constitute sufficient “good cause” to employ an
IFR, then it is hard to see what would.
That is particularly true given that the contraceptive mandate itself was initially adopted through an
IFR. 76 Fed. Reg. 46,621 (Aug. 3, 2011). If the need to
immediately subject employers to a novel mandate
that Congress itself did not impose was sufficiently
pressing to forgo notice and comment, then surely the
need to remedy a RFRA problem serious enough to

10
prompt an extraordinary remand from this Court
must suffice.
At any rate, the whole IFR question should have
been a moot point because there is now a final rule
that went through notice and comment. Respondents
claim that the Third Circuit’s decision to invalidate
the Final Rule anyway “rested on a fact-specific analysis of whether the agencies kept an open mind” during notice and comment. BIO.19. But even putting
aside the workability of an “open-mind” standard, the
only “fact” identified as suggesting closed-mindedness
is that “the IFRs and the Final Rules are virtually
identical.” Pet.App.37a. If that sufficed, then the contraceptive mandate itself would be invalid, as it too
adopted “without change” IFRs that drew thousands
of objecting comments. 77 Fed. Reg. 8725 (Feb. 15,
2012). Indeed, virtually every aspect of the government’s regulatory efforts with respect to the mandate
began with an IFR, and most ended with a rule that
reflected no “meaningful” change. Pet.4-10. There is,
however, apparently no limit to the number of double
standards respondents will embrace in an effort to
deny the Little Sisters a meaningful accommodation
or even a day in court.
4. Respondents have yet “to identify a specific
woman”—any woman, inside or outside their borders—“who will be affected by the Final Rules.”
Pet.App.25a. Yet the court below nonetheless managed to conclude that respondents not only have
standing, but face injury so pervasive as to warrant a
nationwide injunction. The district court’s decision to
arrogate to itself the power to declare the law of the
entire Nation makes this Court’s review imperative.

11
Respondents protest that petitioner did not specifically challenge the scope of the injunction below.
BIO.27. But the government did, and the Third Circuit
passed on the question, Pet.App.49a-52a, so it is
plainly properly before this Court. Respondents contend that the court’s holding is simply a factbound application of settled law. BIO.27. But there is nothing
settled about the circumstances under which nationwide injunctions may be granted, and the rank speculation on which this injunction rests cannot credibly
be described as “fact.” Respondents suggest that the
injunction did not deter the Ninth Circuit from resolving parallel litigation brought by another group of
states. BIO.29. But that court forged ahead only by a
bare 2-1 majority, and pointed to the possibility that
this Court might grant certiorari here to justify not
declaring the matter settled. See California v. U.S.
Dep’t of Health & Human Servs., 941 F.3d 410, 423
(9th Cir. 2019).
Enough is enough. This case should be settled by a
nationwide resolution that ends the nearly decadelong dispute concerning the compatibility of the contraceptive mandate with RFRA. But that nationwide
resolution should come from this Court, not a single
district court purporting to enjoin the fruits of this
Court’s Zubik remand nationwide. And that final resolution should come with the Little Sisters as a party.
The Little Sisters did not seek this confrontation, but
when the federal government insisted that their religious beliefs and statutory rights yield to a series of
regulatory decisions, the Little Sisters filed suit to explain and defend their religious exercise. The latest
chapter of this saga still features continued debates
about whether the regulatory mechanism replaced by

12
the Final Rule imposed a substantial burden on religious exercise or was just a harmless paperwork exercise blown out of proportion by religious adherents
who misperceive their own faith’s conceptions of complicity. The Third Circuit should not have the last
word in that debate, and the debate should not be resolved without the voices of the Little Sisters.
CONCLUSION
This Court should grant the petition.

13
Respectfully submitted.
MARK L. RIENZI
Counsel of Record
ERIC C. RASSBACH
LORI H. WINDHAM
DIANA M. VERM
CHRIS PAGLIARELLA
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire
Ave. NW, Suite 700
Washington, D.C. 20036
(202) 955-0095
mrienzi@becketlaw.org
PAUL D. CLEMENT
ERIN E. MURPHY
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave. N.W.
Washington, D.C. 20004
(202) 389-5000
Counsel for Petitioner
DECEMBER 2019

